No. 20-639
In the Supreme Court of the United States
__________________
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as Governor of
Nevada; AARON FORD, in his official capacity as
Attorney General of Nevada; FRANK HUNEWILL, in
his official capacity as Sheriff of Lyon County,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

__________________

BRIEF OF KENTUCKY, ALASKA, ARIZONA,
ARKANSAS, GEORGIA, IDAHO, KANSAS, LOUISIANA,
MISSISSIPPI, MONTANA, NEBRASKA, OHIO,
OKLAHOMA, SOUTH CAROLINA, SOUTH DAKOTA,
TENNESSEE, TEXAS, UTAH, AND WEST VIRGINIA AS
AMICI CURIAE IN SUPPORT OF THE PETITIONER

__________________

DANIEL CAMERON
Attorney General
BARRY L. DUNN
Deputy Attorney General

S. CHAD MEREDITH
Solicitor General
Counsel of Record
MATTHEW F. KUHN
Deputy Solicitor General

OFFICE OF THE KENTUCKY
BRETT R. NOLAN
ATTORNEY GENERAL
Special Litigation Counsel
700 Capitol Ave.
Suite 118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov
Counsel for Amici Curiae

i
TABLE OF CONTENTS
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The district court’s decision conflicts
with this Court’s Free Exercise Clause
precedent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

The district court’s single-minded reliance on
South Bay and Jacobson cannot stand . . . . . . 7

III.

This is an appropriate case for certiorari
before judgment . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ii
TABLE OF AUTHORITIES
CASES
Cantwell v. Connecticut,
310 U.S. 296 (1940). . . . . . . . . . . . . . . . . . . . . . . . 3
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993) . . . . . . . . 3, 4, 5, 6, 7
Commonwealth of Kentucky v. Beshear,
— F.3d —, 2020 WL 7017858
(6th Cir. Nov. 29, 2020) . . . . . . . . . . . . . . . . . . . 14
Elrod v. Burns,
427 U.S. 347 (1976). . . . . . . . . . . . . . . . . . . . . . . 13
Emp’t Div. v. Smith,
494 U.S. 872 (1990). . . . . . . . . . . . . . . . . . 3, 4, 6, 7
Ex parte Quirin,
317 U.S. 1 (1942). . . . . . . . . . . . . . . . . . . . . . . . . 12
Harvest Rock Church v. Newsom,
20A94 (Dec. 3, 2020) . . . . . . . . . . . . . . . . . . . . 2, 11
Harvest Rock Church v. Newsom,
--- S. Ct. --- , 2020 WL 7061630
(Dec. 3, 2020). . . . . . . . . . . . . . . . . . . . . . . . . 11, 14
Harvest Rock Church, Inc. v. Newsom,
— F.3d —, 2020 WL 7075072
(9th Cir. Dec. 3, 2020). . . . . . . . . . . . . . . . . . . . . 11
Harvest Rock Church, Inc. v. Newsom,
977 F.3d 728 (9th Cir. 2020). . . . . . . . . . . . . . . . 11

iii
Jacobson v. Massachusetts,
197 U.S. 11 (1905). . . . . . . . . . . . . . . . . . 2, 7, 9, 10
Kinsella v. Krueger,
351 U.S. 470 (1956). . . . . . . . . . . . . . . . . . . . 12, 13
Maryville Baptist Church v. Beshear,
567 F.3d 610 (6th Cir. 2020). . . . . . . . . . . . . . . . . 5
Roberts v. Neace,
958 F.3d 409 (6th Cir. 2020). . . . . . . . . . . . . . . . . 3
Roman Catholic Diocese of Brooklyn v. Cuomo,
--- S. Ct. --- , 2020 WL 6948354
(Nov. 25, 2020) . . . . . . . . . . . . . . . . . . . . . . passim
South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020). . . . . . . . . . . . . 2, 7, 8, 9, 10
Trinity Lutheran Church of Columbia, Inc. v. Comer,
--- U.S. --- , 137 S. Ct. 2012 (2017) . . . . . . . . . . . . 3
United States v. United Mine Workers,
330 U.S. 258 (1947). . . . . . . . . . . . . . . . . . . . . . . 12
Youngstown Sheet & Tube Co. v. Sawyer,
343 U.S. 579 (1952). . . . . . . . . . . . . . . . . . . . . . . 12
CONSTITUTION
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim

1
INTERESTS OF AMICI CURIAE1
The amici States have an interest in protecting
their citizens. This means not just guarding their
citizens against threats to their physical or financial
well-being, but also safeguarding their constitutional
rights. And among the most sacred of those rights is
the First Amendment right to free exercise of
religion—”our first freedom.” Roman Catholic Diocese
of Brooklyn v. Cuomo, --- S. Ct. --- , 2020 WL 6948354,
at *5 (Nov. 25, 2020) (“Diocese”) (Gorsuch, J.,
concurring).
In question is an executive order issued by Nevada’s
Governor that severely curtails citizens’ free exercise
rights. Because a threat to First Amendment rights
anywhere is a threat to First Amendment rights
everywhere, the amici States desire to be heard to
ensure that their citizens’ rights are not endangered.
SUMMARY OF THE ARGUMENT
The First Amendment prohibits the government
from imposing burdensome restrictions on religious
exercise while extending more favorable treatment to
nonreligious activity. This uniquely American promise
requires—at the very least—equal treatment. That
means that the government cannot treat secular
organizations “less harshly” than religious institutions
when regulating similar public-health problems. See
Diocese, 2020 WL 6948354, at *2. Yet, that is precisely
what Nevada has done here. By extending favorable
1

Amici have notified counsel for all parties of their intention to file
this brief. Sup. Ct. Rules 37.2(a), 37.4.

2
treatment to nonreligious businesses like casinos and
restaurants, Nevada has elevated the right to engage
in secular conduct above the right to engage in the free
exercise of religion. This manifest violation of the First
Amendment must be remedied.
The foundations for the district court’s ruling that
allows Nevada’s Governor to disfavor houses of worship
were the Chief Justice’s solo concurrence in South Bay
United Pentecostal Church v. Newsom, 140 S. Ct. 1613
(2020) (Mem.), and this Court’s decision in Jacobson v.
Massachusetts, 197 U.S. 11 (1905). The district court
erred in giving these decisions dispositive weight.
Diocese makes this unmistakably clear. Whatever
effect the Chief Justice’s opinion in South Bay and
Jacobson once had, Diocese now provides the applicable
rule.
Finally, the Court should take the unusual step of
granting certiorari before judgment here. The Court
granted certiorari before judgment just last week in the
materially identical case of Harvest Rock Church v.
Newsom, 20A94. Moreover, this is precisely the kind of
case in which this Court has expressed a willingness to
grant a writ of certiorari before judgment. That is, this
case involves restrictions on private rights in response
to exigent circumstances, the questions at issue are of
great public importance, and time is of the essence.

3
ARGUMENT
I.

The district court’s decision conflicts with
this Court’s Free Exercise Clause
precedent.

The First Amendment prohibits the government
from burdening the “free exercise” of religion. See
Cantwell v. Connecticut, 310 U.S. 296, 303 (1940). In
doing so, it “protect[s] religious observers against
unequal treatment.” Trinity Lutheran Church of
Columbia, Inc. v. Comer, --- U.S. --- , 137 S. Ct. 2012,
2019 (2017) (citation omitted). That means the
government generally cannot discriminate against
religious exercise without satisfying the demands of
strict scrutiny. See Church of the Lukumi Babalu Aye,
Inc. v. City of Hialeah, 508 U.S. 520, 533 (1993).
“Faith-based discrimination can come in many
forms.” Roberts v. Neace, 958 F.3d 409, 413 (6th Cir.
2020) (per curiam); see also Lukumi, 508 U.S. at 534.
Even without evidence of animus or intentional
discrimination, laws burdening the free exercise of
religion must be both neutral and generally applicable.
See Emp’t Div. v. Smith, 494 U.S. 872, 884 (1990). The
critical question is whether the state is regulating
secular conduct “less harshly” than religious conduct,
Diocese, 2020 WL 6948354, at *2, even though the
secular conduct “endangers [the same state] interests.”
Lukumi, 508 U.S. at 543–44.
This legal framework is well-known to the Court, as
it has been around for almost three decades. Yet, in
denying injunctive relief below, the district court paid
almost no mind to it. See Pet. App. 4a–9a. Had the

4
district court focused on Smith and its progeny, it
would have granted the injunction in this otherwise
“simple case.” See Calvary Chapel, 140 S. Ct. at 2609
(Gorsuch, J., dissenting).
That is in large part because no one disputes that
the State of Nevada has singled out religious
institutions—in this case, houses of worship—for
particularly burdensome treatment. See Pet. App. at
3a (explaining that “[c]ommunities of worship and
faith-based organizations are allowed to conduct inperson services so long as no more than fifty people are
gathered,” while casinos may “reopen at 50% their
capacity”). And no one disputes that these restrictions
burden the sincerely held beliefs of Calvary Chapel and
any number of other religious institutions as well. Id.
at 2a.
This kind of disparate treatment takes Nevada’s
restrictions outside the realm of a neutral and
generally applicable law. The State, of course, has a
significant interest in safeguarding “public health.”
See Lukumi, 508 U.S. at 544. But that interest does
not give a State cover for violating the Free Exercise
Clause through “underinclusive” laws that fail to
promote the State’s interest in equal force with respect
to nonreligious activity. Id. A law is subject to strict
scrutiny when it burdens religious exercise through
regulating a legitimate state interest while failing to
impose the same kinds of burdens on secular conduct
that “endangers [the same] interest.” Id. at 543.
And that is precisely what Nevada’s gathering
restrictions do. If the State’s interest is in limiting the
number of individuals gathering together indoors, that

5
interest is just as applicable in a casino as it is a
church or synagogue. More to the point: COVID-19
“does not care why” people gather together. See
Maryville Baptist Church v. Beshear, 567 F.3d 610, 615
(6th Cir. 2020) (per curiam). A neutral and generally
applicable law would thus treat all indoor gatherings
the same—with capacity restrictions or durational
restrictions—without respect to the reason that people
have gathered. Yet, Nevada draws lines, not based on
the risks of gathering indoors, but based on the reason
people are there. In doing so, the State imposes
restrictions on secular activities that are “less harsh[]”
than those imposed on religious institutions—even
though the risk of spreading COVID-19 remain the
same. See Diocese, 2020 WL 6948354, at *2. Under a
straightforward application of Lukumi, this takes the
law outside the bounds of general applicability and
requires the state to “run the gauntlet of strict
scrutiny.” See Maryville Baptist Church, 567 F.3d at
614.
This Court’s recent decision in Diocese cleared the
field of any contrary approach to resolving Free
Exercise Claims arising from COVID-19 restrictions.
The facts of Diocese bear a remarkable resemblance to
those here. Like Nevada, the State of New York
imposed capacity limits on houses of worship that were
more restrictive than those placed upon secular indoor
gatherings. See Diocese, 2020 WL 6948354, at *1–2.
And, like Nevada, the State of New York defended that
decision by pointing to other comparable and secular
activities that were treated the same, or even worse,
than houses of worship. Id. at *8 (Kavanaugh, J.,
concurring) (“The State argues that it has not

6
impermissibly discriminated against religion because
some secular businesses such as movie theaters must
remain closed and are thus treated less favorably than
houses of worship.”). Yet, this Court held that the
Applications in Diocese were likely to succeed on their
Free Exercise Claim because of the “troubling” way in
which many (and comparably risky) secular activities
were “treated less harshly” than religious
organizations. Id. at *2. It did not matter that “some
secular” activities received the same treatment. Id. at
*8 (Kavanaugh, J., concurring). What mattered was
that the state had extended favorable treatment to a
certain class of nonreligious activity and had refused to
do the same for religious exercise.
Diocese simply applied the framework from Smith
and Lukumi to facts that arose because of the COVID19 pandemic. See id. at *4 (Gorsuch, J., concurring)
(“[C]ourts must resume applying the Free Exercise
Clause. Today, a majority of the Court makes this
plain.”). Before COVID-19, it would have been
unthinkable that a State could make attendance at a
worship service more difficult than attendance at a
casino without overcoming strict scrutiny. See Lukumi,
508 U.S. at 544–45 (rejecting the city’s rationale for
enacting underinclusive public-health regulations). As
Diocese now makes clear, it remains unthinkable.
When a law burdens religious exercise in the name of
promoting public health, it must apply with equal force
to secular conduct raising similar public-health
concerns. Or, as Justice Kavanaugh explained, “once
a State creates a favored class of businesses, . . . the
State must justify why houses of worship are excluded

7
from that favored class.” Diocese, 2020 WL 6948354, at
*8 (Kavanaugh, J., concurring).
Nevada’s restrictions on houses of worship do not
survive this standard. In concluding otherwise, the
district court’s decision violated Smith, violated
Lukumi, and now violates Diocese. The Court should
grant the petition to reverse this otherwise
unthinkable restriction on religious worship.
II.

The district court’s single-minded reliance
on South Bay and Jacobson cannot stand.

In ruling against Calvary Chapel on its Free
Exercise claim, the district court relied almost entirely
on two decisions: Chief Justice Roberts’s concurring
opinion in South Bay United Pentecostal Church v.
Newsom, 140 S. Ct. 1613 (2020) (Mem.), and Jacobson
v. Massachusetts, 197 U.S. 11 (1905). Although the
district court erred in this regard, when the court
ruled, it did not have the benefit of Diocese. Diocese
now shows just how profoundly the district court erred
by giving dispositive weight to South Bay and
Jacobson.
The extent of the district court’s reliance on the
Chief Justice’s South Bay concurrence cannot be
overstated. The district court summarized the Chief
Justice’s views from South Bay and then summarily
concluded that “the holding in South Bay [is] applicable
to this case” and that “[c]onsequently, the Court finds
that [Calvary Chapel] has not demonstrated a
likelihood of success on the merits of its claim.” Pet.
App. 6a. This conclusion reads far too much into the
Chief Justice’s South Bay opinion.

8
South Bay came before this Court in May. “At that
time, COVID had been with us, in earnest, for just
three months.” Diocese, 2020 WL 6948354, at *5
(Gorsuch, J., concurring). Months have now passed.
“As more medical and scientific evidence [has] become[]
available, and as States have [had] time to craft
policies in light of that evidence, courts should expect
policies that more carefully account for constitutional
rights.” Sisolak, 140 S. Ct. at 2605 (2020) (Mem.)
(Alito, J., dissenting). Courts must now insist on
“precisely tailored rules,” rather than “very blunt” ones,
see id., given that we are “round[ing] out 2020 and face
the prospect of entering a second calendar year living
in the pandemic’s shadow.” Diocese, 2020 WL 6948354,
at *5 (Gorsuch, J., concurring).
This Court’s decision in Diocese can be read no other
way.
As Justice Gorsuch summarized in his
concurrence in Diocese, “[r]ather than apply a
nonbinding and expired concurrence from South Bay,
courts must resume applying the Free Exercise Clause.
Today, a majority of the Court makes this plain.” Id.
On this point, Diocese instructed: “[E]ven in a
pandemic, the Constitution cannot be put away and
forgotten.” Id. at *3; see also id. at *9 (Roberts, C.J.,
dissenting) (“[T]he challenged restrictions raise serious
concerns under the Constitution . . . .”). The Court
continued: Allowing the States to “effectively bar[]
many from attending religious services[] strike[s] at
the very heart of the First Amendment’s guarantee of
religious liberty.” Id. at *3. The First Amendment
accordingly requires the judiciary to “conduct a serious
examination of the need for such a drastic measure.”
Id. (emphasis added). So whatever effect the Chief

9
Justice’s concurrence in South Bay may have once had,
it must now yield to Diocese.2
The district court also invoked this Court’s centuryold decision in Jacobson to justify its holding. See
Calvary Chapel, 2020 WL 4260438, at *2 (citing
Jacobson for the proposition that “[t]he Constitution
principally entrusts ‘the safety and the health of the
people’ to the politically accountable officials of the
States ‘to guard and protect’”). The district court was
not alone in leaning into Jacobson to grant the States
especially broad leeway in responding to COVID-19.
Since April, nearly 200 judicial decisions have cited
Jacobson. Far too many of these courts, however, have
taken Jacobson as a “towering authority that
overshadows the Constitution during a pandemic.”
Diocese, 2020 WL 6948354, at *6 (Gorsuch, J.,
concurring).
That stops with Diocese. The majority did not even
cite Jacobson. Justice Gorsuch’s concurring opinion
explained why. Jacobson, he summarized, “involved an
entirely different mode of analysis, an entirely different
right, and an entirely different kind of restriction.” Id.
at *5. Jacobson “essentially applied” rational-basis
review to a state law that required individuals to take
a vaccine, pay a fine, or prove their right to an
exemption. Id. Jacobson did not consider “the
textually explicit right to religious exercise.” Id. Nor
2

Justice Sotomayor’s Diocese dissent acknowledged that the Chief
Justice’s South Bay concurrence no longer supplies a governing
rule. Diocese, 2020 WL 6948354, at *12 (Sotomayor, J., dissenting)
(“I see no justification for the Court’s change of heart” from South
Bay and Calvary Chapel to Diocese).

10
did it involve “serious and long-lasting intrusions into
settled constitutional rights.” Id. at *6; see also
Calvary Chapel, 140 S. Ct. at 2608 (Alito, J.,
dissenting) (“[I]t is a mistake to take language in
Jacobson as the last word on what the Constitution
allows public officials to do during the COVID-19
pandemic.”).
For all of these reasons, “Jacobson hardly supports
cutting the Constitution loose during a pandemic.” Id.
at *5 (Gorsuch, J., concurring); see also id. at *8
(Kavanaugh, J., concurring) (“But judicial deference in
an emergency or a crisis does not mean wholesale
judicial abdication, especially when important
questions of religious discrimination, racial
discrimination, free speech, or the like are raised.”).
None of the Diocese dissenters challenged Justice
Gorsuch’s reading of Jacobson. Id. at *6 (Gorsuch, J.,
concurring) (“Tellingly no Justice now disputes any of
these points.”). In fact, Chief Justice Roberts’s Diocese
dissent emphasized the limited nature of his reliance
on Jacobson in his South Bay concurrence. Id. at *9
(Roberts, C.J., dissenting) (stating that the “actual
proposition” for which his South Bay opinion relied on
Jacobson “should be uncontroversial”); see also id. at *6
(Gorsuch, J., concurring) (“In fact, today the author of
the South Bay concurrence even downplays the
relevance of Jacobson for cases like the one before us.”).
Thus, especially after Diocese, the district court’s
reliance on Jacobson can no longer stand.
In summary, although the district court’s refusal to
grant injunctive relief to Calvary Church was wrong
from the start, Diocese hollowed out the heart of the

11
court’s reasoning. The Court should not allow this to
stand given “the burden on the faithful who have lived
for months under [Nevada’s] unconstitutional regime
unable to attend religious services.” See id. at *7.
III.

This is an appropriate case for certiorari
before judgment.

This Court rarely grants a writ of certiorari before
judgment, but it should do so here. In fact, it did so
just one week ago in the materially identical case of
Harvest Rock Church v. Newsom, 20A94 (Dec. 3, 2020).
Harvest Rock Church involves a challenge to the
constitutionality of the California Governor’s COVIDrelated restrictions on religious worship. See Harvest
Rock Church, Inc. v. Newsom, 977 F.3d 728 (9th Cir.
2020) (order). On December 3, this Court granted a
petition for a writ of certiorari before judgment and
remanded the case to the Ninth Circuit “with
instructions to remand to the District Court for further
consideration in light of Roman Catholic Diocese of
Brooklyn v. Cuomo, 592 U.S. --- (2020).” Harvest Rock
Church v. Newsom, --- S. Ct. --- , 2020 WL 7061630
(Dec. 3, 2020); see also Harvest Rock Church, Inc. v.
Newsom, --- F.3d ---, 2020 WL 7075072 (9th Cir. Dec. 3,
2020). For the sake of consistency, there is no reason
why the Court should not also grant certiorari before
judgment in this case.
Moreover, even setting Harvest Rock Church aside,
this is precisely the kind of case in which this Court
has expressed a willingness to grant a writ of certiorari
before judgment. Historically, the Court has often
granted certiorari before judgment to resolve questions

12
regarding the government’s power to curtail private
rights during emergencies and other exigent
circumstances.
For example, in Ex parte Quirin, the Court granted
certiorari before judgment to address the President’s
wartime power to try foreign saboteurs by military
tribunal. 317 U.S. 1, 7–8 (1942). The Court explained
that certiorari was appropriate because “of the public
importance of the questions raised . . . and of the duty
which rests on the courts, in time of war as well as in
time of peace, to preserve unimpaired the
constitutional safeguards of civil liberty,” id. at 6, and
because “the public interest required that we consider
and decide those questions without any avoidable
delay,” id. at 7.
In United States v. United Mine Workers, the Court
granted certiorari before judgment to review the
President’s authority to seize coal mines during World
War II, observing that “[p]rompt settlement of this case
[is] in the public interest. 330 U.S. 258, 269 (1947).
And, in Youngstown Sheet & Tube Co. v. Sawyer, the
Court also granted certiorari before judgment to
consider the President’s ability to seize steel mills
during the Korean War, “[d]eeming it best that the
issues raised be promptly decided by this Court.” 343
U.S. 579, 584 (1952).
In Kinsella v. Krueger, the Court granted certiorari
before judgment to address whether the spouse of a
high-ranking Army officer could be tried by court
martial after she murdered her husband in their Army
quarters during the Korean War. 351 U.S. 470 (1956).
The Court granted the writ “because of the serious

13
constitutional question presented and its far-reaching
importance to our Armed Forces stationed in some
sixty-three different countries throughout the world.”
Id. at 473.
This case fits the same mold as those cases—it
involves a government’s attempt to affect private rights
in response to exigent circumstances. And, like those
cases, this one also involves a matter of great public
importance. Indeed, it would be hard to imagine a
question of greater public importance than whether
citizens can keep exercising their rights to religious
worship during a pandemic, or whether a pandemic
gives the government the authority to subject religious
practice to burdensome restrictions that do not apply to
similar secular activities.
This is also a matter in which time is of the essence.
Citizens are experiencing unprecedented restrictions on
their rights to free exercise of religion. This is a matter
not only of the utmost importance, but also of the most
urgent importance because any impairment of the right
to free exercise is an irreparable injury. Diocese, 2020
WL 6948354, at *3 (citing Elrod v. Burns, 427 U.S. 347,
373 (1976) (plurality opinion)). As Justice Gorsuch
emphasized in Diocese, “none of us are rabbis
wondering whether future services will be disrupted as
the High Holy Days were, or priests preparing for
Christmas. Nor may we discount the burdens on the
faithful who have lived for months under [an]
unconstitutional regime unable to attend religious
services.” Id. at *7 (Gorsuch, J., concurring).
The sad reality is that the right to worship as one
sees fit is currently dependent on geography. In states

14
like Nevada and California, citizens are unduly
hampered in their abilities to worship according to the
dictates of their consciences, while states like South
Dakota and Tennessee have not imposed material
burdens on religious worship. This is unacceptable.
“In far too many places, for far too long, our first
freedom has fallen on deaf ears.” Id. at *5. It is time
to remedy this. The freedom to worship should be
equally available to citizens in every state. The Court
should grant a writ of certiorari before judgment here
to ensure that this is so.
But the Court should not simply grant the writ,
vacate the district court’s judgment, and remand the
matter for consideration in light of Diocese—as it did in
Harvest Rock Church. Experience has already shown
that lower courts are prone to misapply the principles
set forth in Diocese. In Commonwealth of Kentucky v.
Beshear, --- F.3d ---, 2020 WL 7017858 (6th Cir. Nov.
29, 2020), the Sixth Circuit stayed a district court’s
injunction against an executive order from Kentucky’s
Governor that shut down private religious schools but
allowed the continuation of secular activities that
involved comparable public-health risks. The Sixth
Circuit had the benefit of Diocese, but missed the mark
in applying it. Rather than asking whether the
Governor’s order treated religious schools more harshly
than some secular activities that involved comparable
health risks, the Sixth Circuit simply concluded that
the order is likely constitutional because it closed both
public and private schools. See id. at *2–3. Thus, in
Kentucky, families cannot now practice their faith by
sending their children to religious schools with fellow
believers, but they can gather in groups at all manner

15
of secular establishments, like movie theaters,
shopping malls, and other commercial venues. This is
inconsistent with Diocese. To help ensure that other
lower courts do not make similar mistakes, this Court
should grant a writ of certiorari here so that it can
reiterate that “courts must resume applying the Free
Exercise Clause.” Diocese, 2020 WL 6948354, at *5
(Gorsuch, J., concurring).
CONCLUSION
The Court should grant a writ of certiorari before
judgment.
Respectfully submitted,
DANIEL CAMERON
Attorney General

BARRY L. DUNN
Deputy Attorney General

S. CHAD MEREDITH
Solicitor General
Counsel of Record

MATTHEW F. KUHN
Deputy Solicitor General

Office of the Kentucky
Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov

BRETT R. NOLAN
Special Litigation Counsel

Counsel for Amici Curiae

16
ADDITIONAL COUNSEL
CLYDE “ED” SNIFFEN, JR. TIM FOX
Acting Attorney General Attorney General of
of Alaska
Montana
MARK BRNOVICH
Attorney General of
Arizona

DOUGLAS J. PETERSON
Attorney General of
Nebraska

LESLIE RUTLEDGE
Attorney General of
Arkansas

DAVE YOST
Attorney General of
Ohio

CHRISTOPHER M. CARR
Attorney General of
Georgia

MIKE HUNTER
Attorney General of
Oklahoma

LAWRENCE WASDEN
Attorney General of
Idaho

ALAN WILSON
Attorney General of
South Carolina

DEREK SCHMIDT
Attorney General of
Kansas

JASON RAVNSBORG
Attorney General of
South Dakota

JEFF LANDRY
Attorney General of
Louisiana

HERBERT H. SLATTERY III
Attorney General and
Reporter of Tennessee

LYNN FITCH
Attorney General of
Mississippi

KEN PAXTON
Attorney General of
Texas

17
SEAN D. REYES
Attorney General of
Utah

PATRICK MORRISEY
Attorney General of
West Virginia

